Memorandum No. D-2010-RAM-011             June 21, 2010




    American Recovery and Reinvestment Act Projects—
                 Fort Drum, New York
Additional Information
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CDC                           Child Development Center
CEFMS                         Corps of Engineers Financial Management System
ECIP                          Energy Conservation Investment Program
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System
MATOC                         Multiple-Award Task Order Contract
MILCON                        Military Construction Program
OMB                           Office of Management and Budget
USACE                         U.S. Army Corps of Engineers
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON , VIRGINIA 22202-4704



                                                                             June 21, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                  CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act Projects- Fort Drwn, New York
         (Memorandwn No. D-2010-RAM-Oll)


This memorandum provides observations from our audit of selected American Recovery
and Reinvestment Act projects at Fort Drum. We will continue to review DOD's progress
and issue subsequent reports and memoranda that will discuss our evaluation of DOD ' s
implementation of the American Recovery and Reinvestment Act. We are making no
recommendations and do not require a written response. Therefore, we are publishing this
memorandum in final form .

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8900 (DSN 664-8900).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
>> This blank page represents the back side of the transmittal memorandum. <<
   Memorandum No. D-2010-RAM-011 (Project No. D2009-D000AE-0268.001)                     June 21, 2010


                  Results in Brief: American Recovery and
                  Reinvestment Act Projects—Fort Drum, New
                  York
                                                         for contract actions funded through the
What We Did                                              Recovery Act.
Our overall objective was to determine whether
DOD appropriately planned and implemented                What We Recommend
Recovery Act projects. Specifically, we                  This report contains no recommendations.
reviewed the planning, funding, contracting, and
initial execution of two Recovery Act projects at
Fort Drum to determine whether efforts of the            Figure 1. Artist’s Rendering of Proposed
Military Services and Defense agencies                   Fort Drum Child Development Center
complied with Recovery Act requirements,
Office of Management and Budget guidance,
the Federal Acquisition Regulation, and DOD
implementing guidance.

We reviewed:
   a $10.7 million Recovery Act-funded
      Military Construction project to design
      and construct a child development
      center, and
   a $1.6 million Energy Conservation
      Investment Program project to
      rehabilitate and install solar walls in Fort       Source: U.S. Army Corps of Engineers
      Drum maintenance shops.

What We Found                                            Figure 2. Solar Walls Installed on a
The Army’s internal controls over the planning,          Maintenance Shop at Fort Drum
funding, contracting, and initial execution of
Recovery Act projects at Fort Drum were
effective as they applied to the audit objectives.
Fort Drum and U.S. Army Corps of Engineers
personnel properly justified and adequately
planned, funded, contracted for, and began
execution of Recovery Act projects for
constructing a child development center and
rehabilitating and installing solar walls in
maintenance shops. Additionally, Fort Drum
and U.S. Army Corps of Engineers personnel
properly reported the task order solicitations and
awards, and the contracts contained the clauses          Source: IEA Energy Conservation in Buildings and
that the Federal Acquisition Regulation requires         Community Systems Case Study



                                                     i
>> This blank page represents the back side of the Results in Brief page. <<
Table of Contents

Introduction                                            1


      Objective                                         1

      Background                                        1

      Review of Internal Controls                       4


Results of Review of Fort Drum Recovery Act Projects    5


Appendices


      A. 	Scope and Methodology                        10 

             Prior Audit Coverage                      11 

      B. Recovery Act Criteria and Guidance 	          12 

Introduction
Objective
The primary objective of the audit was to determine whether DOD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, contracting, and
initial execution of Recovery Act projects at Fort Drum to determine whether the efforts
of the Military Services and Defense agencies complied with Recovery Act requirements,
OMB guidance, the Federal Acquisition Regulation (FAR), and DOD implementing
guidance. See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest	 in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .        .         .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.


Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. Review of the
funding phase is to ensure the funds were distributed in a prompt, fair, and reasonable
manner. Review of the project execution phase is to ensure that contracts awarded with
Recovery Act funds were transparent, competed, and contain specific FAR clauses; that
Recovery Act funds were used for authorized purposes; and that instances of fraud,
waste, error, and abuse were mitigated. Review of the execution phase also ensures that
program goals were achieved, including specific program outcomes and improved results
on broader economic indicators; that projects funded avoided unnecessary delays and


                                                   1

cost overruns; and that contractors or recipients of funds reported results. Review of the
tracking and reporting phase ensures that the recipients’ use of funds was transparent to
the public and that benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements were for:

      buying American construction material,
      protecting contractor whistleblowers,
      publicizing contract actions,
      reporting, and
      giving the Government Accountability Office and agency Inspectors General
       access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements under the American Recovery and Reinvestment Act of 2009,” directed
contracting officers to use the Government-wide FBO Web site
(http://www.fedbizopps.gov) to:

      identify actions as funded by the Recovery Act,
      post pre-award notices for orders exceeding $25,000,
      describe supplies in a clear narrative to the general public, and
      provide the rationale for awarding any contracting actions that were not both
       fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.



                                             2

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the Components issue their implementation
guidance. OMB has issued 10 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DOD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization; Homeowners Assistance; Military Construction
(MILCON); Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers (USACE) Civil Works.

The values of the six Recovery Act programs are shown in the following table.
           DOD Agency-Wide and Program-Specific Recovery Act Programs
                               Program                          Amount
                                                              (in millions)
       Energy Conservation Investment                               $120
       Facilities Sustainment, Restoration, and Modernization      4,260
       Homeowners Assistance                                         555
       Military Construction                                       2,185
       Near Term Energy-Efficient Technologies                       300
       U.S. Army Corps of Engineers Civil Works                    4,600
          Total                                                 $12,020

The Recovery Act divides the approximately $12 billion among 32 DOD and USACE
line items of appropriations.

Fort Drum Operations
Fort Drum is a garrison under the Northeast Region of the U.S. Army Installation
Management Command with the mission of managing Army installations worldwide to:

       support readiness and the mission execution and transformation of an
        expeditionary force;
       enable the well-being of soldiers, civilians, and family members;
       improve Army infrastructure; and
       preserve the environment.

Fort Drum commands active-duty units assigned to the installation and provides
administrative and logistical support to tenant units, training support to active and reserve
units from all Services assigned to Fort Drum, and planning and support for the




                                              3

mobilization and training of almost 80,000 troops annually. Fort Drum is also home to
the 10th Mountain Division, whose mission is to be manned and trained for rapid
deployment worldwide.

Fort Drum United States Army Corps of Engineers Office
The USACE New York District supported the Fort Drum Garrison by providing
contracting and project management services. These services included awarding
contracts for Recovery Act-funded projects and assigning project managers to oversee the
contracted work.

Fort Drum Recovery Act Projects
Fort Drum had a total of 64 Recovery Act-funded projects, with a total estimated value of
$87.3 million. We selected two projects valued at $12.3 million for review. The two
projects included constructing a child development center (CDC) ($10.7 million) and
rehabilitating and installing solar walls in maintenance shops ($1.6 million).

Review of Internal Controls
Army’s internal controls over the planning, funding, contracting, and initial execution of
Recovery Act projects at Fort Drum were effective as they applied to the audit objectives.




                                            4

Results of Review of Fort Drum Recovery Act
Projects
USACE New York District and the Fort Drum Department of Public Works properly
justified, planned, funded, and began execution of Recovery Act-funded projects for
MILCON of a CDC (the MILCON project) and an Energy Conservation Investment
Program (ECIP) project for rehabilitating and installing solar walls in maintenance shops
(the ECIP project). In addition, Army personnel properly awarded two fixed-price task
orders to pre-existing contracts for the MILCON and ECIP projects. The task order
solicitations were properly reported, and the contracts contained the clauses the FAR
requires for contract actions funded through the Recovery Act.

MILCON and ECIP Planning
We reviewed DD Form 1391, “Military Construction Project Data,” and supporting
documentation including economic analysis and analysis of alternatives for each project.
DOD Regulation 7000.14-R, “DOD Financial Management Regulation,” volume 2B,
chapter 6, requires DOD Components to use DD Form 1391 when requesting
authorization of both new construction and urgent unforeseen projects using emergency
or contingency authorization. Two specific sections of DD Form 1391 detail the
requirements for proposed projects and how the proposed projects would benefit the
mission. Specifically, Item 10, “Description of Proposed Construction,” requires clear
and concise descriptions of the proposed construction, including a complete outline of all
principal features of the work. Item 11, “Requirement,” provides a detailed, informative
statement of why the projects are needed, how and under what conditions the
requirements are presently being met, and the manner and extent to which mission
accomplishment would be affected if the projects were not approved.

MILCON Project
The DD Form 1391 for the MILCON project included an economic analysis by the Fort
Drum Public Works Department.1 The economic analysis explained the project objective
as providing CDC services for 126 children from 6 weeks to 5 years of age. The
economic analysis showed that the MILCON project met the project objective better than
alternatives, including renovating existing facilities, leasing other facilities, or doing a
combination of renovation and new construction. In addition to the economic analysis,
1
  The DOD Office of Inspector General is also performing Project No. D2009-D000AE-0268.000,
“Recovery Act-Funded Military Construction of Army Child Development Centers,” to assess the Army’s
overall planning of Recovery Act-funded MILCON of CDCs. In performing this project, we are
considering factors beyond individual DD Form 1391 justifications, including whether the Army most
equitably apportioned Recovery Act-funded child care capacity to base locations where the need was
greatest. Our analysis uses Army data projections through FY 2015 to compare childcare needs of Fort
Drum to the needs of six other Army installations receiving Recovery Act Funding to build a CDC. These
installations include Fort Bragg, North Carolina; Hunter Army Airfield, Georgia; Fort Hood, Texas; Fort
Belvoir, Virginia; Fort Carson, Colorado; and Fort Eustis, Virginia. Army officials stated to us that making
size adjustments to the seven awarded CDC contracts would lead to delays in project execution and
increased project costs, including incurring penalties to cancel the existing contracts.


                                                     5

the DD Form 1391 met Unified Facilities Criteria for planning heating, ventilation, and
air-conditioning; telecommunications; fire protection; antiterrorism; and multiple design
features.2

ECIP Project
We reviewed DD Form 1391 for the ECIP project, which included rehabilitation and
installation of solar walls in maintenance shops. Our review showed that Fort Drum
personnel had included a life-cycle cost analysis in the project planning, which evaluated
the cost savings associated with the project and determined that the project offered a
savings to investment ratio of 2.28:1. The DD Form 1391 noted that the project was
necessary to reduce energy waste and improve the working environment for Fort Drum
employees. Further, the DD Form 1391 stated that four of the five buildings included in
the project were underinsulated and some had inadequate heating systems. With the
assistance of an engineer from the Technical Assessment Directorate of the DOD Office
of Inspector General, the audit team used visual inspection to verify that three of the five
buildings were underinsulated and in need of repair. The audit team also noted that one
of the buildings had a roof that leaked badly and windows and doors that lacked
insulation.

In planning for installing the solar walls on four of the five buildings, Fort Drum Public
Works personnel used a study from the contractor showing that the estimated savings
associated with the solar wall systems on the four buildings included on this project was
expected to be 1,471.7 million British Thermal Units per year, which corresponds to
$16,406 in savings per year.

Fort Drum MILCON and ECIP Recovery Act Funding
For the selected MILCON and ECIP projects, we verified that Recovery Act funding was
properly transferred to the projects, and USACE properly cited Recovery Act
appropriation numbers. Our evaluation of project funding included reviewing reporting
data from the Corps of Engineers Financial Management System (CEFMS).

MILCON Project
CEFMS documentation showed that the USACE New York District properly transferred
Recovery Act funding for the MILCON CDC project on September 25, 2009. The Army
initially estimated the project at $10.7 million in the DoD Military Construction Program
Plan, May 15, 2009. Subsequently, in September 2009, the Army awarded the project
task order for $6.4 million, $4.3 million less than the original Army estimate. In October
2009, USACE reserved $7.0 million for CDC construction costs, $3.7 million less than
the original estimate. The $3.7 to $4.3 million difference from the original Army estimate
represents potential bid savings. Under provisions of the DOD Comptroller
memorandum, “Project Cost Variations During Execution of American Recovery and

2
  Under Secretary of Defense for Acquisition, Technology, and Logistics memorandum, “Department of
Defense Unified Facilities Criteria,” May 29, 2002, requires the Military Departments to use Unified
Facilities Criteria for planning, design, construction, sustainment, restoration, and modernization of
facilities, regardless of funding source.


                                                    6

Reinvestment Act Expenditure Plans for Infrastructure Investments,” May 7, 2009, the
Army can use the actual bid savings (after project completion) to offset cost growth on
other Recovery Act-funded construction of CDCs. The Army could also combine the bid
savings on this project with bid savings on other CDC projects and nominate a project for
constructing an additional CDC. Because the Recovery Act provided the Army with $80
million specifically for the construction of CDCs, the Army cannot use bid savings on the
construction of CDCs to supplement or nominate other types of Recovery Act-funded
projects.

ECIP Project
CEFMS documentation showed that officials at USACE Headquarters properly
transferred Recovery Act funding for the project to the USACE New England division
and then to the project. The appropriation symbol of “0501,” representing Recovery Act
MILCON, Defense-wide funding, was correctly included on the documentation reviewed
for the project. The Army initially estimated the project at $1.6 million in the DOD
Energy Conservation Investment Program Plan, May 15, 2009. USACE initially reserved
$1.5 million for the project. Subsequently, in September 2009, the Army awarded the
task order for slightly less, $1.4 million. As provided in the DOD Comptroller
memorandum, the Army can use the bid savings on this project to fund other Recovery
Act projects at Fort Drum.

MILCON and ECIP Initial Project Execution
The USACE New York District and the Fort Drum Department of Public Works
adequately performed initial project execution of the MILCON and ECIP projects. Initial
project execution included reviewing whether contracts were competitively solicited and
awarded, with full transparency, and contained FAR-required clauses for Recovery Act
contract actions.

Competitive and Transparent Contract Solicitation and Award
We found that USACE New York District competitively awarded the task order and
properly reported the contracting process for the MILCON project. We also found that
USACE New York District properly reported the contracting process for the ECIP
project, while awarding the task order against a contract the Fort Drum contracting office
had previously awarded.

MILCON Project
The USACE New York District competed the MILCON project among small business
contractors and received 11 bids. On September 25, 2009, the USACE contracting office
awarded the winning bidder the fixed-price task order number 0003 for $6.4 million on
multiple-award task order contract (MATOC) W912DS-09-D-0004. On September 25,
2009, contracting personnel posted the award on the FBO Web site.

Although the original presolicitation notice for the task order did not identify the project
as a Recovery Act action, on August 19, 2009, USACE issued a special notice on the




                                              7

FBO Web site to the presolicitation that identified the project as a Recovery Act action
and clearly explained the nature of the work for the MILCON project. Additionally,
USACE posted on the FBO Web site the task order and award notice for this MILCON
project, which identified it as a Recovery Act action. Further, the MATOC contained all
relevant Recovery Act-specific FAR clauses.

ECIP Project
The USACE New York District executed the ECIP project as task order CE01 for
$1.4 million on contract number W911S2-08-D-8002 that the Fort Drum contracting
office had previously awarded. The contracting office awarded the original contract in
April 2008 and solicited offers through a negotiated bid effort. The contract was issued as
a 1-year contract with four additional 1-year option periods, with a minimum value of
$200,000 and a maximum value of $75 million.

To ensure the transparency of the transactions related to the ECIP project, the USACE
New York District posted a notice for informational purposes only to the FBO Web site
before awarding the task order. The notice specified that USACE would use Recovery
Act funds for the task order. After contract award, USACE New York District issued a
notification on the FBO Web site explaining how USACE officials accomplished the
contract action.

Required Federal Acquisition Regulation Clauses
For the selected MILCON and ECIP projects, we determined that the USACE New York
District properly included the required FAR clauses in modifications to the contracts
under which these projects are being executed.

MILCON Project
The MATOC containing the MILCON project task order included FAR-mandated
contract clauses for actions funded through the Recovery Act. Specifically, the MATOC
contains FAR 52.203-15, “Whistleblower Protection Under the American Recovery and
Reinvestment Act of 2009”; FAR 52.204-11 and FAR 52.204-11(d), “Recovery Act
Reporting Requirements”; and FAR 52.215-2, “Audits and Records – Negotiation.”

ECIP Project
The contractor was performing the ECIP project under a contract the Army created
before the President signed the Recovery Act into law. However, the contracting officer
created a modification to the contract to add the required FAR clauses for the Recovery
Act. The modification contained all of the same required FAR clauses as the one for the
MILCON project. Additionally, the modification contained FAR 52.244-6, “Sub-
contracts for Commercial Items,” for subcontracts on this task order.

Tracking and Reporting
For the selected MILCON and ECIP projects, we determined that the USACE New York
District and the Fort Drum Department of Public Works complied with Recovery Act
tracking and reporting requirements. OMB Memorandum M-10-08, “Updated Guidance


                                            8

on the American Recovery and Reinvestment Act – Data Quality, Non-Reporting
Recipients, and Reporting of Job Estimates,” December 18, 2009, established quarterly
reporting requirements for recipients of Recovery Act funding and assigned
responsibilities to Federal agencies to review the reports. Additionally, “FRAGO # 25 to
Operations Order 2009-11 (USACE Execution of the American Recovery &
Reinvestment Act 2009) (Recipient Reporting),” December 2009, requires that USACE
Headquarters officials identify contractors receiving Recovery Act funding that have not
complied with requirements for submitting quarterly contract information through
www.FederalReporting.gov. Required contract information includes amounts obligated,
amounts invoiced, number of people employed on the contract, and amount
subcontracted.

MILCON Project
Personnel from the USACE New York District and the office of the Assistant Chief of
Staff for Installation Management properly tracked and reported on the MILCON project.
Specifically, the Assistant Chief of Staff helps garrisons assess their ability to meet
projected child care demand caused by future population changes and tracks the impact
of Future Years Defense Program construction. The contractor for this project also
followed applicable Recovery Act guidelines and reported the project information on
www.Recovery.gov with details about the project.

ECIP Project
USACE New York District officials properly tracked and reported on the ECIP project.
The contractor for the project also followed applicable Recovery Act guidelines and
reported the project on www.Recovery.gov with details including the project scope of
work.

Cost and Schedule Status of Selected Projects
During the time of our review, USACE had not begun construction on task order 0003 on
contract number W912DS-09-D-0004 for the MILCON project. Therefore, no cost or
schedule data was available for our review. For the ECIP project, task order CE01 on
contract number W911S2-08-D-8002 was issued September 25, 2009, and no information
on cost overruns or schedule delays was available at the time of our review.




                                           9

Appendix A. Scope and Methodology
We conducted this audit from August 2009 through June 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

Scope
We selected two Recovery Act projects at Fort Drum with a total estimated cost of
$12.3 million. These projects included a MILCON project for a CDC estimated at
$10.7 million and an ECIP project, involving the rehabilitation of maintenance shops and
installation of solar walls, estimated at $1.6 million. Our review included interviewing
Army personnel at the Fort Drum Department of Public Works and USACE New York
District. We also reviewed requirements, contracting, financial documentation, and
policies dated from May 2002 through March 2010.

Methodology
Our overall audit objective was to evaluate DOD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
project execution, and tracking and reporting of Recovery Act projects to determine
whether efforts of the Military Services and Defense agencies complied with Recovery
Act requirements, OMB’s guidance, the FAR, and DOD implementing guidance.
Specifically, we determined whether:

      the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
      funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
      contracts contained Recovery Act FAR clauses (Project Execution); and
      recipients’ use of funds was transparent to the public and the benefits of the funds
       were clearly, accurately, and timely reported (Reporting).

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. We used
information collected from all projects to update and improve the risk assessment model.
We selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations.




                                            10

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

Use of Computer-Processed Data
We relied on computer-processed data from the FBO Web site (http://www.
fedbizopps.gov) and CEFMS in meeting our audit objectives. Specifically, we relied on
the FBO Web site to determine whether the Army had met the requirements for
transparently reporting Recovery Act-funded contract actions. We relied on CEFMS for
determining whether USACE had properly transferred Recovery Act funding to approved
projects. We tested the accuracy of the computer-processed data by obtaining copies of
contract documentation. We also interviewed program officials responsible for reporting
on Recovery Act contract actions and for managing Recovery Act funding. No problems
with data integrity came to our attention in the course of the audit.

Use of Technical Assistance
An engineer from the Technical Assessment Directorate, DOD Office of Inspector
General, assisted in the audit. The engineer supported the team in evaluating the need for
the MILCON and rehabilitation projects selected for review.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability/.




                                           11

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

   	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   	 White House Memorandum, “Government Contracting,” March 4, 2009

   	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009



                                           12

    	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting
       of Job Estimates,” December 18, 20092

    	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 20102

    	 White House Memorandum, “Combating Noncompliance with Recovery Act
       Reporting Requirements,” April 6, 20102

    	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 2010




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.



                                                     13

